IN THE SUPREME COURT OF THE UNITED STATES
No,
Patricia A. Flowers
Petitioner,
v.

Connecticut Light and Power Company, aka Northeast Utilities , aka Eversource
Energy.
Respondent

CERTIFICATE OF SERVICE
I, Patricia A. Flowers, pro se, hereby certify that on this 15th day of October 2019,1
caused three copies of the Brief and Appendices of Patricia A. Flowers
to be served by overnight delivery on the following counsel
Honor S. Heath, Senior Counsel
Eversource Energy
107 Selden Street
Berlin, CT 06037
(860) 665-4865
honor.heath@eversource.com
I further certify that all parties required to be served have been served.
Patricia A. Flowers, pro se
ow'-O^5'

76 Cambridge Street
West Hartford, CT 06110
“
(860)866-6512
RECEIVED ] >flowers770@gmail.com

OCT 1 8 2019
OFFICE OF THE CLERK
SUPREME COURT. U.S.

